                           Office of the Inspector General


September 27, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005)


Attached is a copy of the subject final report. Our objective was to determine whether
the Social Security Administration granted waivers of overpayments exceeding $500 to
beneficiaries in accordance with title II of the Social Security Act.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide them within the
next 60 days. If you wish to discuss the final report, please call me or have your
staff contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at
(410) 965-9700.




                                           James G. Huse, Jr.

Attachment
            OFFICE OF

     THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




     WAIVERS GRANTED FOR
     TITLE II OVERPAYMENTS
         EXCEEDING $500

  September 1999   A-09-97-61005




AUDIT REPORT

                     EXECUTIVE SUMMARY


OBJECTIVE

The objective of this audit was to determine whether the Social Security Administration
(SSA) granted waivers of overpayments exceeding $500 to beneficiaries in accordance
with title II of the Social Security Act (Act).

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
under title II of the Act. For the Fiscal Year ending September 30, 1998,
the OASDI program provided total cash benefits of $372 billion to 44.2 million
beneficiaries.1

Beneficiaries sometimes receive Social Security benefits to which they are not entitled.
When overpayments are detected, SSA attempts to obtain repayment from the
individuals liable for the debt or, if unsuccessful, offsets it against their current benefits.
An overpaid beneficiary may seek relief from repayment by requesting a waiver of
recovery. Generally, SSA will grant a waiver if the beneficiary is without fault and
the recovery would “defeat the purpose of title II” or is “against equity and good
conscience.”

RESULTS OF REVIEW
Our review of a universe of 26,015 waivers granted during the period of August 1996
through June 1997 disclosed that an estimated 2,260 (or 8.7 percent) waivers of
overpayments were incorrectly granted and an additional 13,058 (or 50.2 percent)
waivers were inadequately supported. We estimated that the incorrect and unsupported
waiver decisions amounted to $4.3 and $37.4 million, respectively. The estimated
number and dollar amounts of waiver decisions are based on statistical projections
of a stratified sample of 200 items randomly selected from the universe.
(see Appendix B)

Because of the complexity and subjectivity of the waiver process, we determined that the
incorrect waiver decisions resulted from: (1) the misapplication of waiver criteria by field
office (FO) employees, and (2) clerical errors. We considered other waiver decisions to be
unsupported because SSA was unable to provide us with the case folders, or supporting
documentation for the waiver decision was missing, and/or FO employees did not
adequately develop the cases.

   1
       Social Security Accountability Report for Fiscal Year 1998, page v.



                                                      i
CONCLUSIONS AND RECOMMENDATIONS

We concluded that SSA needs to improve its procedures to prevent improper waivers of
overpayments to ineligible individuals. These procedures should also reduce the
vulnerability of the Agency to individuals who misrepresent their repayment ability or
the circumstances surrounding their overpayments in order to qualify for a waiver.
Therefore, we recommend that SSA:

•	 Provide FOs with additional guidance and training to clarify when recovery of
   overpayments from beneficiaries would “defeat the purpose of title II” or be “against
   equity and good conscience.” Specifically, SSA should revise its waiver checklist to
   further assist FOs in completing and documenting their reviews of waiver cases, with
   emphasis on the computation of monthly income and expenses, identification of
   beneficiaries with possession of overpayments, and allocation of household income
   and expenses.

•	 Strengthen procedures to preclude waivers to beneficiaries who have the ability to
   repay their debts, including individuals with unreasonable living expenses,
   nonrecurring and discretionary expenditures, and reasonable expectations of
   returning to work after a temporary layoff or injury.

•	 Revise procedures to clarify what constitutes “lack of good faith” to ensure that
   waivers are denied to beneficiaries who are at fault for causing their overpayments
   (e.g., individuals who negotiate duplicate checks).

•	 Direct program service centers to improve controls over the retention of case folders,
   including supporting documentation for waiver decisions, to ensure that the
   necessary information is accounted for in a proper manner.

•	 Instruct FOs to document the verification of all information, either financial or
   testimonial, provided by beneficiaries who request waivers of overpayments.

AGENCY COMMENTS AND OIG RESPONSE

In its response, SSA agreed with the intent of the recommendations but did not believe
that all of the suggested changes would achieve the desired results. SSA generally
attributed the findings to insufficient training rather than inadequate procedures. SSA
declined to concur with the 17 incorrect waivers until it had the opportunity to review the
cases. At the exit conference, SSA requested to review the 99 unsupported waivers.
We provided SSA with the requested information and offered to provide information on
the 17 incorrect waivers. We are available to furnish this information at any time. The
full text of SSA’s comments is included in AppendixC.




                                              ii
                           TABLE OF CONTENTS


                                                                                                                         Page

EXECUTIVE SUMMARY ....................................................................................................i


INTRODUCTION .................................................................................................................1


RESULTS OF REVIEW .....................................................................................................5


     INCORRECT WAIVERS OF OVERPAYMENTS .....................................................6


     �    Recovery Did Not “Defeat the Purpose of Title II”..............................................6

     �    Beneficiaries Were at Fault for Overpayments...................................................9

     �    Recovery Was Not “Against Equity and Good Conscience” ..........................10


     UNSUPPORTED WAIVERS OF OVERPAYMENTS ............................................11


     �    Case Folders Not Available .................................................................................11

     �    Missing Supporting Documentation....................................................................12

     �    Weak Substantiating Evidence............................................................................12


CONCLUSIONS AND RECOMMENDATIONS ...........................................................15


APPENDICES
APPENDIX A - Acronyms

APPENDIX B - Sampling Methodology

APPENDIX C - Agency Comments

APPENDIX D - Major Contributors to the Report

APPENDIX E - SSA Organizational Chart

                            INTRODUCTION


OBJECTIVE

The objective of this audit was to determine whether the Social Security Administration
(SSA) granted waivers of overpayments exceeding $500 to beneficiaries in accordance
with title II of the Social Security Act (Act).

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
under title II of the Act. For the Fiscal Year (FY) ending September 30, 1998,
the OASDI program provided total cash benefits of $372 billion to 44.2 million
beneficiaries.2 Beneficiaries include retired or disabled wage earners, their dependents,
and the dependents of deceased wage earners.

Beneficiaries sometimes receive Social Security benefits to which they are not entitled.
For example, SSA may incorrectly compute adjustments to benefit payments or
beneficiaries may not promptly report events—such as changes in earnings or marital
status—which affect their entitlement to benefits. Generally, when an overpayment is
detected, SSA attempts to obtain repayment from the individual liable for the debt. If
unsuccessful, SSA then adjusts current benefits to collect the overpayment or, when
necessary, pursues collection through other means.

An overpaid beneficiary may seek relief from repayment by requesting a waiver of
recovery. The Act allows for the waiver of recovery if the beneficiary is without fault and
the recovery would “defeat the purpose of title II” or is “against equity and good
conscience.” 3

Without Fault

An individual is without fault if he or she is “blameless” 4 in causing the overpayment.
Conversely, individuals who demonstrate a lack of good faith or do not exercise a
high degree of care in reporting circumstances, which may affect their entitlement to
or the amount of benefits, are at fault for the overpayment. When assessing fault, field
office (FO) employees are required to consider all circumstances surrounding an
overpayment, which includes any physical, mental, educational, or linguistic limitations
of the beneficiary. Any doubts about whether an individual understood his or her

   2
       Ibidem.
   3
       Section 204(b), 42 U.S.C. § 404(b).

   4
       SSA’s Program Operations Manual System section GN 02250.005.



                                                1
reporting requirements are generally resolved in favor of the beneficiary. Lack of good
faith in preventing an overpayment is evident when the overpayment resulted from a
beneficiary’s:

   •   incorrect statement which he or she knew to be false;

   •	 failure to furnish information which he or she should have known was material;
      and

   •   acceptance of any payment that he or she should have known was incorrect.

When assessing what a beneficiary either knew or should have known, employees
should consider the following: (1) the application for benefits contains an explanation of
most reporting responsibilities, (2) a copy of “Your Social Security Rights and
Responsibilities” is mailed with every award letter, (3) beneficiaries receive pamphlets
and check stuffers at various times during the year, and (4) beneficiaries receive
information about the retirement test every January. Unless otherwise noted,
employees should assume that beneficiaries received the appropriate information.

“Defeat the Purpose of Title II”

Recovery of an overpayment would “defeat the purpose of title II” if the overpayment is
no longer in the beneficiary’s possession and recovery would create a financial hardship
for the beneficiary (i.e., deprive the person of income required for ordinary and
necessary living expenses). Recovery is considered to present a financial hardship if it
reduces: (1) the beneficiary’s total monthly income in excess of expenses below $25,
or (2) the beneficiary’s assets below $3,000 (for beneficiaries without dependents) or
$5,000 (for beneficiaries with one dependent, plus $600 for each additional dependent).

“Against Equity and Good Conscience”

Recovery of an overpayment would be “against equity and good conscience” if the
beneficiary relied on SSA’s decision to award benefits and subsequently changed his
or her financial condition for the worse. Some examples include scenarios where
beneficiaries received benefit payments and then quit their jobs or incurred expenses to
send a child to college. “Against equity and good conscience” also applies when more
than one beneficiary is entitled to payments on the same account and collection is
sought from an individual who lived in a separate household from the beneficiary who
received the overpayment.

SSA’s Program Operations Manual System (POMS) does not provide specific financial
criteria to define what constitutes a finding of “against equity and good conscience” as it
does for “defeat the purpose of title II.” However, the Code of Federal Regulations
(CFR) clearly states that an individual’s financial circumstances are not material to a




                                           2
finding of “against equity and good conscience.” 5 Regardless of whether the waiver was
granted because it would “defeat the purpose of title II” or is “against equity and good
conscience,” the individual is released from any liability to reimburse SSA for the
overpayment.

Agency Procedures

To request a waiver of overpayment, a beneficiary must complete and submit Form
SSA-632, Request for Waiver of Overpayment Recovery or Change in Repayment
Rate. This form requires the beneficiary to provide general information about the
circumstances surrounding the overpayment and detailed financial data about the
beneficiary’s assets, monthly household income, monthly household expenses, financial
expectations, and availability of funds. The Form SSA-635, Waiver Determination, is
completed by SSA to document the waiver decision.

Since August 1996, FOs have been responsible for processing virtually all requests for
waivers submitted from beneficiaries. Previously, the program service centers (PSC)
handled most disability cases. Waivers granted for amounts over $2,000 must be
reviewed by another employee in the office. Waivers granted for amounts less than
$2,000 are not subject to second-party review. Until FY1996, there had been an
upward trend in the number of waivers granted and the amount of total overpayments
waived. This trend is illustrated in the chart below.


                      Waivers Granted for FYs 1993 Through 1996
   Total Dollars                                     Number

   $85,000,000                                       24,000


   $80,000,000                                       23,000


   $75,000,000                                       22,000


   $70,000,000                                       21,000


   $65,000,000                                       20,000


   $60,000,000                                       19,000
                   FY 1993 FY 1994 FY 1995 FY 1996            FY 1993 FY 1994 FY 1995 FY 1996




   5
       Title 20, CFR § 404.509(b).


                                               3
SCOPE AND METHODOLOGY
Based on SSA’s Recovery of Overpayments, Accounting, and Reporting (ROAR)
system, we obtained a data extract of all waivers granted between October 1992 and
June 1997. From August 1996 through June 1997, there were 26,015 waivers of
overpayments totaling $92.2 million granted to beneficiaries under title II of the Act in
which the amount waived exceeded $500. We selected this time period to eliminate
any waivers granted by PSCs prior to August 1996, when SSA transferred the
responsibility for processing waivers to FOs. From this universe, we selected a
stratified random sample of 200 waivers, of which 100 waivers were granted for
amounts from $500 to $2,000 and 100 waivers were granted for amounts in excess of
$2,000.

To accomplish our objective, we:

   •   reviewed the applicable sections of the Act, CFR, and POMS;

   •	 conducted interviews with officials from SSA’s Headquarters, PSCs, regional
      offices, and FO;

   •   extracted a stratified random sample of 200 waivers from SSA’s ROAR system;

   •	 obtained computer printouts from SSA’s Master Beneficiary Record, Payment
      History Update System, and Detailed Earnings Query; and

   •	 reviewed case folders to determine the propriety of the waiver decisions in our
      sample.

We evaluated the adequacy of SSA’s controls and procedures to ensure that waivers of
overpayments exceeding $500 were granted to beneficiaries in accordance with the
requirements of the Act.

The results of our audit were based on a stratified random sample of 200 waivers granted
between August 1996 and June 1997. We projected the results of our sample review to the
universe using the Office of the Inspector General, Office of Audit, statistical software for
variable analysis and attribute analysis of a stratified random sample. All estimates in our
report are the midpoint projections.

We performed audit work in Baltimore, Maryland, and Richmond, California, between
November 1997 and October 1998. We conducted our audit in accordance with generally
accepted government auditing standards.




                                           4
                      RESULTS OF REVIEW


Our review of a universe of 26,015 waivers granted during the period of August
1996 through June 1997 disclosed that an estimated 2,260 (or 8.7 percent) waivers of
overpayments were incorrectly granted and an additional 13,058 (or 50.2 percent)
waivers were inadequately supported. We estimated that the incorrect and unsupported
waiver decisions amounted to $4.3 and $37.4 million, respectively. The estimated
number and dollar amounts of waiver decisions are based on statistical projections
of a stratified sample of 200 items randomly selected from the universe.
(see Appendix B).

Because of the complexity and subjectivity of the waiver process, we determined that
the incorrect waiver decisions resulted from: (1) the misapplication of waiver criteria by
field office (FO) employees, and (2) clerical errors. We considered other waiver
decisions to be unsupported because SSA was unable to provide us with the case
folders, or supporting documentation for the waiver decision was missing, and/or
FO employees did not adequately develop the cases. For the 200 waiver decisions in
our sample, the results of our review are summarized below.


                         Summary of Waiver Decisions Reviewed

                          Correct Waiver
                            Decisions
                              42.0%

                                                                                  Incorrect Waiver
                                                                                     Decisions
                  Weak Substantiating
                                                                                        8.5%
                      Evidence
                         7.0%


                                                                              Case Folders Not
                       Missing Supporting                                        Available
                         Documentation                                             19.0%
                             23.5%


     Note: Twenty of the correct waiver decisions (or 10.0 percent) contained errors which did not materially
     affect the waiver decision. This amount, combined with the 17 incorrect waiver decisions (or 8.5 percent),
     resulted in a total of 37 waiver decisions (or 18.5 percent) with errors.




                                                       5
INCORRECT WAIVERS OF OVERPAYMENTS
Our audit disclosed that 37 of the 200 waivers (or 18.5 percent) in our sample contained
1 or more errors. For each of these cases, we recalculated the waiver decision and
concluded that the net effect of the errors resulted in 17 incorrect waiver decisions. The
errors in the remaining 20 cases were immaterial or offset other errors and, therefore,
did not have an adverse effect on the waiver decisions. 6 For the 17 incorrect waiver
decisions, we found that SSA granted:

    •    12 waivers where the recovery did not “defeat the purpose of title II,”

    •    3 waivers where the beneficiaries were at fault for their overpayments, and

    •    2 waivers where the recovery was not “against equity and good conscience.”

As a result, these beneficiaries received waivers of overpayments to which they were
not entitled. A breakdown of the waivers questioned during our audit is provided below.



                                Summary of Waiver Decisions Questioned

                          30
        Number of Cases




                          25                                                Did Not Defeat the
                                                                            Purpose of Title II
                          20
                                                                            Beneficiary at Fault for
                          15                                                Overpayment
                          10                                                Not Against Equity and
                                                                            Good Conscience
                          5
                          0
                               Waiver Decisions   Incorrect Waiver
                               with Errors (37)    Decisions (17)



Recovery Did Not “Defeat the Purpose of Title II”

Of the 17 incorrect waiver decisions in our sample, SSA granted 12 waivers where
recovery did not “defeat the purpose of title II.” In these instances, the beneficiaries
either had the financial resources to repay their debt or had all or part of the
overpayments in their possession. This occurred because some SSA employees, who
process relatively few waiver transactions, were not fully aware of applicable program

    6
      The 20 correct waiver decisions contained errors similar to the 17 incorrect waiver decisions. For
the 20 correct waiver decisions, we found 15 cases contained errors involving provisions for “defeat the
purpose of title II,” 4 cases contained errors involving provisions for “against equity and good conscience,”
and 1 case contained both types of errors.


                                                         6
requirements. We noted that SSA employees made both procedural and clerical errors
involving the application of waiver criteria and computation of monthly income and
expenses. We also noted other cases where the beneficiaries claimed questionable
income and expenses to qualify for the waivers. Specifically, we found:

Monthly Income Exceeded Monthly Expenses – In 5 of the 12 incorrect waiver
decisions, FO employees incorrectly concluded that recovery of an overpayment would
“defeat the purpose of title II” because it would present a financial hardship for the
beneficiary. Under SSA procedures, recovery of an overpayment creates a financial
hardship if it reduces: (1) the beneficiary’s total monthly income in excess of expenses
below $25, or (2) the beneficiary’s assets below $3,000 (for beneficiaries without
dependents) or $5,000 (for beneficiaries with one dependent, plus $600 for each
additional dependent). 7 For five cases in our sample, SSA employees concluded that
a financial hardship existed and, therefore, granted a waiver to the beneficiary. Our
review of the supporting documentation in the case folders, including the financial
analyses prepared by the FO employees, disclosed that the beneficiaries’ monthly
incomes exceeded their monthly expenses by an average of $91.

Beneficiaries Had Possession of Overpayments – In 4 of the 12 incorrect waiver
decisions, the beneficiaries reported that they had possession of all or part of the
overpayments at the time the waivers were requested. POMS states that “recovery will
not “defeat the purpose of title II” to the extent that the person has, at the time of the
overpayment notice, any part of the overpayment in his/her possession.”8 Accordingly,
the beneficiaries were ineligible to receive waivers for any amount of overpaid SSA
benefits still in their possession. For four cases in our sample, this information was
reported by the beneficiaries on their requests for waivers; however, FO employees did
not consider the information in their waiver decisions.

Misallocation of Household Income and Expenses – In 3 of the 12 incorrect waiver
decisions, FO employees misapplied waiver provisions related to the allocation of
household income and expenses. Under SSA procedures, a single family unit consists
of the wage earner, spouse, and dependents living in the same household.9 All income
and resources earned by the members of a family unit are considered to be available to
each member of the household. However, when determining whether recovery of an
overpayment from a minor child in a household will “defeat the purpose of title II,” only
the child’s own income (e.g., Social Security benefits) and resources are considered.
All dependent members of a household, such as minor children, are deemed their
pro-rata share of household expenses. We found that SSA employees made errors in
applying these rules for three cases in our sample. Consequently, the individuals
received waivers even though they had the income to make restitution.



   7
       POMS section GN 02250.115.
   8
       POMS section GN 02250.105.
   9
       POMS section GN 02250.130.


                                           7
Questionable Income and Expenses – In addition to the 12 incorrect waivers of
overpayments noted above, we identified a number of questionable expenses claimed
by beneficiaries and possible sources of income not included for waiver determination
purposes. These items related to ordinary and necessary expenses, treatment of large
expenditures, and potential future earnings. Because of the lack of specific program
guidance, we did not take exception to these items during our review. Nevertheless, we
believe that because of vague criteria in POMS for applying the provisions under “defeat
the purpose of title II,” six individuals received waivers even though they had the ability
to repay their debts. Details are as follows:

•	 Recovery of an overpayment may “defeat the purpose of title II” if it deprives a
   person of income required for “ordinary and necessary” living expenses. However,
   SSA procedures do not clearly define the term “ordinary and necessary” living
   expenses. Specifically, POMS states that:

        “A person’s particular circumstances and lifestyle determine whether
        expenses are ordinary and necessary. Patterns of living are established
        over time and these patterns must be considered when evaluating the
        facts. This policy, however, does not imply acceptance of unreasonable
        expenses which are neither ordinary nor necessary.”10

   We believe this definition allows for the inclusion of some expenses that should be
   considered unreasonable or extravagant. For example, in one case, an overpaid
   beneficiary was allowed to include $400 a month for expenses for tennis
   tournaments and their related costs (e.g., training and travel). In another case, an
   overpaid beneficiary was allowed to include expenses of $500 a month for college
   savings and $75 a month for Individual Retirement Account contributions. In yet
   another case, an overpaid beneficiary was allowed to include $260 a month in
   charitable contributions as an ordinary and necessary expense.

•	 Under SSA procedures, large expenditures that are unusual and nonrecurring in
   nature should be prorated over a 12-month period. This rule applies even if the
   expenditures are discretionary or can be reasonably expected to produce benefits
   over a longer period of time.11 For example, in one case, an individual who had
   been overpaid a total of $23,104 was granted a waiver even though he had a
   monthly income of $3,529. This beneficiary claimed other expenses of $417 per
   month for such items as home repairs and improvements, appliances and furniture,
   and gifts and vacations. We believe that these expenses were discretionary and
   should have been disallowed or prorated over a period of time in excess of
   12 months.

•	 Waiver determinations in which recovery would “defeat the purpose of title II” are
   based on a person’s current financial condition. POMS states that such information

   10
         POMS section GN 02250.120.
   11
        Ibidem.



                                           8
   should be no more than 1-year old when the waiver decision is made.12 No
   consideration is given to an individual’s future earnings potential or whether the
   individual’s current financial condition is temporary and is expected to improve. For
   example, in one case, a young couple received a waiver because the husband had
   just been laid off from work even though he had an established work history. In
   another case, a young adult who had been overpaid as a child received a waiver
   because he was recovering from a motorcycle accident even though he also had a
   work history.

We recommend that SSA provide FOs with additional guidance and training to clarify
when recovery of overpayments from beneficiaries would “defeat the purpose of title II.”
Although SSA has developed a waiver checklist,13 we believe it should be revised to
further assist FOs in completing and documenting their reviews of waiver cases, with
emphasis on the computation of monthly income and expenses, identification of
beneficiaries with possession of overpayments, and allocation of household income and
expenses. We also recommend that SSA revise POMS to preclude waivers to
beneficiaries who have the ability to repay their debts. These actions should address
individuals with unreasonable living expenses, nonrecurring and discretionary
expenditures, and reasonable expectations of returning to work after a temporary layoff
or injury.

Beneficiaries Were at Fault for Overpayments

Three of the 17 incorrect waiver decisions in our sample involved beneficiaries who
were at fault for their overpayments. We determined that SSA procedures require
FO employees to make subjective decisions regarding what beneficiaries either knew or
should have known about events that affected their benefit payments and whether the
beneficiaries understood their responsibilities to report such events to SSA on a timely
basis. Consequently, FO employees waived recovery of overpayments to three
individuals who were clearly at fault for their overpayments.

One beneficiary was overpaid $845 for April and May 1995. This occurred because the
beneficiary received and negotiated two duplicate checks. The FO employee approved
the waiver and stated that the beneficiary was not at fault in causing the overpayment
because she had exercised a high degree of care. However, we found that the
beneficiary did not make any attempt to contact SSA upon receipt of the duplicate
checks. Instead, since one of the checks was annotated with the phrase “Social
Security Insurance,” the beneficiary asserted that the duplicate checks were for
repayment of Medicare premiums withheld from her retirement checks. The beneficiary
did not exercise a high degree of care nor accept the duplicate checks in good faith.
As a result, the waiver should not have been granted.



   12
        POMS section GN 02250.115.
   13
        POMS section GN 02250.244.


                                          9
The other two cases involved beneficiaries who continued to receive disability benefits
after they were no longer eligible. For example, a beneficiary was overpaid $2,095 for
the period of November 1991 through March 1992. The FO employee approved the
waiver and stated that the beneficiary was not at fault in causing the overpayment
because her ability to understand written instructions was very limited. However, we
found that the beneficiary had been employed as a case worker/coordinator and her
duties included interviewing clients and determining their eligibility. In March
1991, when SSA requested that the beneficiary provide information about her work
history since 1979, she did not report her 1990 earnings. In February 1992, after SSA
learned about her 1990 earnings and notified the beneficiary that she was no longer
entitled to benefits, she negotiated her March 1992 check. The beneficiary understood
her reporting requirements and did not act in good faith. As a result, the waiver should
not have been granted.

We recommend that SSA revise its procedures to preclude waivers to individuals who
are at fault for causing their overpayments. Current guidelines, which require FOs to
ascertain what beneficiaries either knew or should have known about their reporting
responsibilities, result in subjective decisions. We believe that beneficiaries who
negotiate duplicate checks or do not report events that affect their entitlement to
benefits are responsible for their resulting overpayments. As a result, SSA should
clarify what constitutes “lack of good faith” by beneficiaries to prevent future
occurrences of similar problems noted during our review.

Recovery Was Not “Against Equity and Good Conscience”

To qualify for a waiver, a beneficiary must be without fault and recovery must either
“defeat the purpose of title II” or be “against equity and good conscience.” Of the
17 incorrect waiver decisions in our sample, SSA granted 2 waivers in which the
recovery was not “against equity and good conscience.” This occurred because SSA
employees misinterpreted the waiver criteria for “against equity and good conscience”
and, therefore, did not determine whether the recovery would “defeat the purpose of
title II.” As a result, SSA disregarded the repayment ability of the beneficiaries and
granted waivers to two individuals who had the financial resources to repay their debts.

For example, one FO employee waived an overpayment because the beneficiary had
relied on misinformation from a routine notice mailed by SSA. Therefore, the recovery
was deemed to be “against equity and good conscience.” However, POMS states that
individuals are misinformed only when they solicit information that subsequently proves
to be incorrect. Specifically, POMS states that “a routine notice is never cause for
misinformation. For example, misinformation does not apply to the Automatic Earnings
Reappraisal Operations notice received by a person who has received anincorrect
benefit computation.” 14



   14
        POMS section GN 02250.061.


                                          10
As a result, the doctrine of “against equity and good conscience” did not apply in this
case. The doctrine also did not apply in the other case we questioned. Consequently,
SSA should have performed analyses of the financial information provided by the
beneficiaries. Based on our review, we concluded that recovery of the overpayments
from the two beneficiaries would not “defeat the purpose of title II.” Since recovery was
not “against equity and good conscience” and did not “defeat the purpose of title II,” the
two beneficiaries received waivers to which they were not entitled.

We recommend that SSA provide FOs with additional guidance and training to clarify
when the recovery of overpayments from beneficiaries would be “against equity and
good conscience.” Accordingly, SSA should revise its waiver checklist to further
assist FOs in completing and documenting their reviews of waiver cases.

UNSUPPORTED WAIVERS OF OVERPAYMENTS

Our audit disclosed that 99 of the 200 waivers (or 49.5 percent) in our sample were not
adequately supported. Consequently, we were unable to determine the propriety of
these waiver decisions. The 99 unsupported decisions consisted of 38 cases where
SSA was unable to provide us with the case folders, 47 cases in which the case folders
did not contain supporting documentation for the waiver decisions, and 14 cases that
were not adequately developed by FO employees. A summary of the unsupported
waiver decisions in our sample is provided below.



                              Summary of Unsupported Waiver Decisions

                         50

                         40
       Number of Cases




                                                                Case Folders Not
                                                                Available
                         30                                     Missing Supporting
                                                                Documentation
                         20                                     Weak Substantiating
                                                                Evidence
                         10

                          0




Case Folders Not Available

SSA could not provide the case folders for 38 of the 99 waiver decisions in our sample.
Without the case folders, we were unable to determine the propriety of the waiver
decisions. During our review, we made numerous attempts to obtain the case folders
from both FOs and PSCs. POMS states that PSCs are responsible for monitoring the


                                                11
whereabouts of the case folders and routing correspondence to the appropriate
folders. 15

SSA officials could not account for the missing case folders; however, they informed us
that the case folders may have been assigned to another SSA component or incorrectly
routed or filed. In these instances, we contacted the other components but were still
unable to obtain the folders. We recommend that SSA direct PSCs to improve controls
over the retention of case folders to ensure that the necessary information is accounted
for in a proper manner.

Missing Supporting Documentation

We found that SSA did not retain the supporting documentation for 47 of the 99 waiver
decisions in our sample. Without the supporting documentation, we were unable to
determine the propriety of the waiver decisions. POMS requires that beneficiary folders
contain the documentation supporting the waiver decisions until the paper claims files
are destroyed.16 During our review, we made numerous attempts to obtain the
supporting documentation from both FOs and PSCs. Although SSA officials were
unable to explain these discrepancies, they informed us that the supporting
documentation may have been incorrectly routed or filed.

We believe the lack of supporting documentation raises serious questions about the
integrity of the waiver process and the reliability of the waiver decision. Unless the
necessary documentation is obtained and properly retained to support the waiver
decision, the program is vulnerable to fraud, waste, and abuse. SSA needs to take
corrective action to reduce the potential for adverse publicity, legal challenges, and
monetary losses. We recommend that SSA direct PSCs to improve controls over the
retention of supporting documentation for waiver decisions to ensure that the necessary
information is forwarded to the appropriate case folders.

Weak Substantiating Evidence

We concluded that SSA did not adequately develop the remaining 14 of the 99 waiver
decisions in our sample. This occurred because FO employees did not always obtain
sufficient evidence to support the waivers of overpayments granted to the beneficiaries.
Of the 14 cases with weak substantiating evidence, there were 10 cases in which the
household expenses reported by beneficiaries were not verified and 4 cases in which
FOs accepted unsupported statements from beneficiaries. Specifically, we found:

Verification of Household Expenses – There was no evidence in 10 case folders to
indicate that SSA had verified the household expenses reported by beneficiaries. To
determine if recovery of an overpayment would “defeat the purpose of title II,” SSA is
required to analyze the current financial condition of the beneficiary. POMS states that

   15
        POMS section SM 00401.010.
   16
        POMS section DG 00510.025.



                                         12
beneficiaries should provide financial information that is no more than 1-year old.17 In
most instances, FO employees document that they have verified expenses by either:
(1) annotating the Form SSA-632, Request for Waiver of Overpayment Recovery or
Change in Repayment Rate, or (2) including a copy of the supporting documentation in
the case folder. However, in 10 cases, we could not locate any indication of employee
verification. Consequently, we could not determine the propriety of the waiver
decisions.

Acceptance of Beneficiary Statements – There was no evidence in four case folders to
indicate that SSA had verified the beneficiary statements used as a basis for its
determination that the individuals were not at fault for their overpayments. POMS states
that an individual is without fault for an overpayment if he or she properly reported a
termination or deduction event and SSA took some action which the individual could
reasonably believe was correct. 18 When an overpaid beneficiary alleges that he or she
properly reported an event to SSA, employees are required to review all available
records in the FO and request PSC staff to review the case folder for any evidence that
could support the beneficiary’s statement. If supporting documentation cannot be
located, employees are required to assess the credibility of the beneficiary’s statement
before accepting the allegation. POMS states that employees should obtain a detailed
statement from the beneficiary that includes the following information:

   •    how the report was made;

   •    to whom the report was made;

   •    the exact contents of the report;

   •	 what the person expected would happen as a result of the report (e.g., benefits
      would terminate, person would be notified only if benefits were affected, etc.);
      and

   •    why the person did not recontact SSA when no action was taken on the report.19

Our review disclosed that FO employees did not take adequate steps to determine
whether documentation existed to support the assertions made by the beneficiaries.
Also, FO employees did not adequately assess the credibility of the beneficiary
statements before accepting the assertions. Therefore, in four cases, SSA did not have
sufficient justification to support the decisions to grant waivers to the beneficiaries.
Without this information, we were unable to determine the propriety of the waiver
decisions.



   17
        POMS section GN 02250.115.
   18
        POMS section GN 02250.042.
   19
        POMS section GN 02250.010.


                                            13
We recommend that SSA instruct FOs to document the verification of all information,
either financial or testimonial, provided by beneficiaries who request waivers of
overpayments. In addition, SSA should clarify that acceptance of such information
without independent verification undermines the integrity of the waiver process and
compromises the accuracy of the waiver decision.




                                        14
 CONCLUSIONS AND RECOMMENDATIONS


We projected the 17 incorrect waiver decisions and 99 unsupported waiver decisions to
our universe of 26,015 waivers granted during the period of August 1996 through
June 1997. We estimated that 2,260 (or 8.7 percent) waivers of overpayments were
incorrectly granted and an additional 13,058 (or 50.2 percent) waivers were
inadequately supported. Because of the complexity and subjectivity of the waiver
process, we determined that the incorrect waiver decisions resulted from: (1) the
misapplication of waiver criteria by field office (FO) employees, and (2) clerical errors.
The unsupported waiver decisions occurred because SSA was unable to provide us
with the case folders, or supporting documentation for the waiver decision was missing,
and/or FO employees did not adequately develop the cases. Based on our projections,
we estimated that the incorrect and unsupported waiver decisions amounted to
$4.3 and $37.4 million, respectively (see Appendix B).

We believe that SSA needs to improve its procedures to prevent improper waivers
of overpayments to ineligible individuals. These procedures should also reduce the
vulnerability of the Agency to individuals who misrepresent their repayment ability or
the circumstances surrounding their overpayments in order to qualify for a waiver.
Therefore, we recommend that SSA:

1.	 Provide FOs with additional guidance and training to clarify when recovery of
    overpayments from beneficiaries would “defeat the purpose of title II” or be “against
    equity and good conscience.” Specifically, SSA should revise its waiver checklist to
    further assist FOs in completing and documenting their reviews of waiver cases,
    with emphasis on the computation of monthly income and expenses, identification
    of beneficiaries with possession of overpayments, and allocation of household
    income and expenses.

2.	 Strengthen procedures to preclude waivers to beneficiaries who have the ability to
    repay their debts, including individuals with unreasonable living expenses,
    nonrecurring and discretionary expenditures, and reasonable expectations of
    returning to work after a temporary layoff or injury.

3.	 Revise procedures to clarify what constitutes “lack of good faith” to ensure that
    waivers are denied to beneficiaries who are at fault for causing their overpayments
    (e.g., individuals who negotiate duplicate checks).

4.	 Direct PSCs to improve controls over the retention of case folders, including
    supporting documentation for waiver decisions, to ensure that the necessary
    information is accounted for in a proper manner.




                                          15
5.	 Instruct FOs to document the verification of all information, either financial or
    testimonial, provided by beneficiaries who request waivers of overpayments.

AGENCY COMMENTS AND OIG RESPONSE

In its response, SSA agreed with the intent of the recommendations but did not believe
that all of the suggested changes would achieve the desired results. For the first two
recommendations, SSA agreed to provide additional training to FO employees by the
end of the first quarter of calendar year 2000. For the fourth recommendation, SSA
advised that corrective actions were implemented during our audit to improve controls
over case folders and supporting documentation. For the fifth recommendation, SSA
contended that POMS provides sufficient instructions to its employees. However, the
results of our review suggest that additional guidance is needed to ensure the waiver
decisions are fully developed and supported.

SSA did not agree with our third recommendation. SSA stated that fault determinations
are subjective in nature and, therefore, existing instructions are adequate. SSA added
that further clarification of these instructions may cause FO employees to make waiver
decisions without proper consideration of the individual circumstances of each case.
We disagree. We believe that additional guidance would help—not hinder—employees
in evaluating the relevant information necessary to make equitable and consistent
waiver decisions. Therefore, we encourage SSA to reconsider its response to this
recommendation.

SSA declined to concur with the 17 incorrect waivers until it had the opportunity to
review the cases. At the exit conference, SSA requested to review the 99 unsupported
waivers. We provided SSA with the requested information and offered to provide
information on the 17 incorrect waivers. We are available to furnish this information at
any time. SSA also provided technical comments that have been considered and
incorporated, where appropriate, in this final report. The full text of SSA’s comments
is included in Appendix C.

SSA also proposed that we revise the language of the report in which we discuss the
universe of waivers reviewed by our audit. We examined SSA’s proposed alternate
language and believe that, substantively, it does not differ from the original report. As
such, we have not modified that report language.




                                           16
APPENDICES

                                                               APPENDIX A


                        ACRONYMS



CFR     Code of Federal Regulations


FO      Field Office


FY      Fiscal Year


OASDI   Old-Age, Survivors and Disability Insurance


POMS    Program Operations Manual System


PSC     Program Service Center


ROAR    Recovery of Overpayments, Accounting, and Reporting


SSA     Social Security Administration





                                  A-1
                                                                               APPENDIX B


                 SAMPLING METHODOLOGY


We obtained a data extract from the Social Security Administration (SSA) of all waivers
granted between October 1992 and June 1997. From this extract, we determined that
there were 26,015 waivers granted for the period of August 1996 through June 1997.
This period was selected for review because, effective August 1, 1996, SSA amended
its waiver procedures by transferring responsibility for virtually all requests for waivers to
the field offices. Previously, the program service centers handled most disability cases.
The following table provides information about the waivers in our population.

                            Table 1 – Population Description

        Population                  Population Count               Population Dollars
Strata 1 ($500 - $2,000)               14,643                       $15,413,704
Strata 2 (Over $2,000)                 11,372                       $76,820,074
         Total                         26,015                       $92,233,778

We selected a total of 200 waivers for review. We randomly sampled 100 waivers from
each of the two stratum in our population: (1) waivers granted for amounts from $500 to
$2,000, and (2) waivers granted for amounts in excess of $2,000. We reviewed each
case to determine whether the waiver decision was accurate and properly supported.
The following tables provide the details of our sampling results and statistical
projections.
                              Table 2.1 – Sample Results
                              Incorrect Waiver Decisions

   Population               Sample Size             Error Count            Error Dollars
$500 - $2,000                 100                      10                        $7,309
Over $2,000                   100                        7                     $28,495
      Total                   200                      17                      $35,804

                 Table 2.2 – Statistical Projection of Sample Results
                       Number of Incorrect Waiver Decisions

                          90 Percent Confidence Level
                                     Strata 1       Strata 2
            Description           ($500 - $2,000) (Over $2,000)                 Total
Projected Number in Population        1,464            796                      2,260
Lower Limit                             810            380                      1,190
Upper Limit                           2,395          1,447                      3,842



                                             B-1
                Table 2.3 – Statistical Projection of Sample Results
                      Amount of Incorrect Waiver Decisions


                          90 Percent Confidence Level
                                      Strata 1       Strata 2
            Description           ($500 - $2,000) (Over $2,000)           Total
Projected Amount in Population      $1,070,257     $3,240,451          $4,310,708
Lower Limit                          $444,082       $831,247           $1,275,329
Upper Limit                         $1,696,431     $5,649,656          $7,346,087

                           Table 3.1 – Sample Results
                          Unsupported Waiver Decisions


   Population           Sample Size           Error Count         Error Dollars
$500 - $2,000             100                    55                 $61,671
Over $2,000               100                    44                $249,624
      Total               200                    99                $311,295

                Table 3.2 – Statistical Projection of Sample Results
                    Number of Unsupported Waiver Decisions


                          90 Percent Confidence Level
                                     Strata 1       Strata 2
            Description           ($500 - $2,000) (Over $2,000)          Total
Projected Number in Population         8,054          5,004              13,058
Lower Limit                            6,782          4,047              10,829
Upper Limit                            9,292          5,991              15,283

                Table 3.3 – Statistical Projection of Sample Results
                    Amount of Unsupported Waiver Decisions


                          90 Percent Confidence Level
                                      Strata 1       Strata 2
            Description           ($500 - $2,000) (Over $2,000)           Total
Projected Amount in Population       $9,030,485    $28,387,241         $37,417,726
Lower Limit                          $7,474,380    $20,528,116         $28,002,496
Upper Limit                         $10,586,589    $36,246,367         $46,832,956




                                        B-2
                   APPENDIX C


AGENCY COMMENTS

                                                                             APPENDIX D


  MAJOR CONTRIBUTORS TO THE REPORT


Office of the Inspector General

William Fernandez, Director, Western Program Audit Division


Jack H. Trudel, Deputy Director


Joseph I. Robleto, Senior Auditor


Carmen T. Chu, Auditor


Cheryl Robinson, Writer-Editor, Technical Services



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-09-97-61005.
                        APPENDIX E


SSA ORGANIZATIONAL CHART

